CERTIFICATE OF SERVICE
NO. 19-870
Jeana K. Reinbold, Chapter 7 Trustee of the Estate of 180 Equipment, LLC,
Petitioner
v.
First Midwest Bank
Respondent
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the AMICUS
BRIEF OF WILLIAM H. HENNING AND JOHN T. MCGARVEY by sending three (3) true and correct copies
of the same by Fedex 2 Day prepaid for delivery to the following addresses:
Jeana K. Reinbold
1100 S. 5th Street
Springfield, IL 62703
(217) 241-5629
jeana@jeanareinboldlaw.com
Counsel for Jeana K. Reinbold, not
individually but solely in her capacity as
Chapter 7 Trustee of the Estate of I80
Equipment, LLC

William J. McKenna Jr.
Foley & Lardner LLP
321 N. Clark Street
Suite 3000
Chicago, IL 60654-4762
(312) 832-4541
wmckenna@foley.com
Counsel for First Midwest Bank

Lucas DeDeus

February 12, 2020
SCP Tracking: Senn-401 S. Fourth Street, Suite 1200-Cover Cream

